                                                                               OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                  Reporting OIG: Department of Transportation - OIG
              Month Ending Date: 08/31/2012

                                                                Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau           Recovery Act TAFS      Award Type        US Indicator       Total Obligations    Total Gross         Direct or             Ordering TAFS
No.                                                                                                                      Outlays         Reimbursable
      Department of Transportation -(69-0131 2009 \             Other             Y - US            $17,627,832        $17,356,989
      OIG                           2013) Transportation -
                                    OIG - Recovery Act
  1                                                                                                                                    Direct              n/a
      Department of Transportation -(69-0131 2009 \         Contracts and         Y - US             $329,000           $329,000
      OIG                           2013) Transportation - Orders (including
                                    OIG - Recovery Act      modifications)
  2                                                                                                                                    Direct              n/a
  3
  4
  5
  6
  7

                                                                               Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau             FY 2009 Non-         Total FY 2009     Total FY 2009   FY 2010 Non-Recovery   Total FY 2010      Total FY 2010     FY 2011 Non-Recovery   Total FY 2011   Total FY 2011
No.                                   Recovery Act TAFS       Obligations      Gross Outlays         Act TAFS          Obligations       Gross Outlays           Act TAFS          Obligations    Gross Outlays
    Department of Transportation -   (69-0130 2009)              $1,569,106        $1,569,106 (69-0130 2010)              $5,157,796            $5,157,796 (69-0130 2011)              $569,541           $569,541
  1 OIG                              Transportation - OIG                                     Transportation - OIG                                         Transportation - OIG
  2
  3
  4
  5
  6
  7


                                                   Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau             FY 2012 Non-         Total FY 2012     Total FY 2012   FY 2013 Non-Recovery   Total FY 2013      Total FY 2013
No.                                   Recovery Act TAFS       Obligations      Gross Outlays         Act TAFS          Obligations       Gross Outlays
    Department of Transportation -   (69-0130 2012)
  1 OIG                              Transportation - OIG
  2
  3
  4
  5
  6
  7




                                                                                                                                                                                     August 2012 Page 1
                                                                                                                  OIG Recovery Act Monthly Report



                                                                     Monthly Update Report Data (sheet 2 of 5) Version 5.0a
                                                                         Reporting OIG: Department of Transportation - OIG

                                                                     Month Ending Date: 8/31/2012


                                                                                                                                      Fiscal Year 2009

                                                                                                Monetary Results -Investigations                  Monetary Results - Audits, Inspections, Reviews*


                                                                                                     Recoveries (FY 09):                 $0.00         Questioned Costs (FY 09):              $0.00



                                                                                           Forfeitures/Seizures (FY 09):        $750,000.00           Unsupported Costs (FY 09):              $0.00



                                                                                                                                                 Recommendations for Better Use
                                                                                             Estimated Savings (FY 09):                  $0.00                                                $0.00
                                                                                                                                                              of Funds (FY 09):




                                                                                                                                      Fiscal Year 2010
                                                                                                Monetary Results -Investigations                  Monetary Results - Audits, Inspections, Reviews*


                                                                                                     Recoveries (FY 10):                 $0.00         Questioned Costs (FY 10):              $0.00



                                                                                           Forfeitures/Seizures (FY 10):                 $0.00        Unsupported Costs (FY 10):              $0.00



                                                                                                                                                 Recommendations for Better Use
                                                                                             Estimated Savings (FY 10):                  $0.00                                                $0.00
                                                                                                                                                              of Funds (FY 10):


                                                                                                                                      Fiscal Year 2011
                                                                                                Monetary Results -Investigations                  Monetary Results - Audits, Inspections, Reviews*


                                                                                                     Recoveries (FY 11):                 $0.00         Questioned Costs (FY 11):              $0.00



                                                                                           Forfeitures/Seizures (FY 11):                 $0.00        Unsupported Costs (FY 11):              $0.00



                                                                                                                                                 Recommendations for Better Use
                                                                                             Estimated Savings (FY 11):                  $0.00                                                $0.00
                                                                                                                                                              of Funds (FY 11):



                                                                                                                                      Fiscal Year 2012

                                                                                                Monetary Results -Investigations                  Monetary Results - Audits, Inspections, Reviews*


                                                                                                     Recoveries (FY 12):          $5,396.00            Questioned Costs (FY 12):              $0.00



                                                                                           Forfeitures/Seizures (FY 12):                 $0.00        Unsupported Costs (FY 12):              $0.00



                                                                                                                                                 Recommendations for Better Use
                                                                                             Estimated Savings (FY 12):                  $0.00                                                $0.00
                                                                                                                                                              of Funds (FY 12):


                                                                                                                               Cumulative Since 2/17/2009
                                                                                                Monetary Results -Investigations                  Monetary Results - Audits, Inspections, Reviews*


                                                                                              Recoveries (cumulative):       $5,396.00            Questioned Costs (cumulative):      $0.00


                                                                                                    Forfeitures/Seizures
                                                                                                                           $750,000.00           Unsupported Costs (cumulative):      $0.00
                                                                                                           (cumulative):



                                                                                                                                                 Recommendations for Better Use
                                                                                        Estimated Savings (cumulative):       $0.00                                                   $0.00
                                                                                                                                                         of Funds (cumulative):




* These data include Federal Audits, Inspections, and Reviews only                                                                                                                                    August 2012 Page 1
                                                                                                                OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 3 of 5) Version 5.0a
        Reporting OIG: Department of Transportation - OIG
    Month Ending Date: 8/31/2012

                                                 FTE Working on Recovery
                                                                                                                                                                                  Testimonies:
      Fiscal Year              2009              2010              2011                       2012            Cumulative
       Newly Hired FTE
                               0.77              15.40                25.23                18.33                 59.73                                                    Provided (monthly):        0
         (cumulative):

FTE Funded by Recovery
                               1.54              22.19                56.85                43.86                 124.44                                                 Provided (cumulative):       6
 Act Funds (cumulative):

     FTE Not Funded by
    Recovery Act Funds        15.20              40.52                 4.43                   0.00               60.15
          (cumulative):


                                                                                                                                                                      Audits / Inspections / Evaluations /
              Complaints                                 Whistleblower Reprisal Allegations                                       Investigations                                                                   Training / Outreach
                                                                                                                                                                                    Reviews
             Monthly Data                                          Monthly Data                                                   Monthly Data                                   Monthly Data                         Monthly Data

                                                                                                                                                                                                                   Training Sessions
              Received:         4                                        Received:             0                                     Opened (this month):        0      Initiated (this month):      0                                    0
                                                                                                                                                                                                                          Provided:

                                                                                                                                   Active (as of the end of           In Process (as of the end
                                                                         Accepted:             0                                                                64                                  15          Individuals Trained:      0
                                                                                                                                               the month):                      of the month):
                                                                                                                                                                              Completed Final
                                                                                                                                                                                                                  Hours of Training
                                                                                                                                   Closed without Action:        2             Published Work        0                                    0
                                                                                                                                                                                                                         Provided:
                                                                                                                                                                                      Products:
                                                                                                                                                                               Priority Interim
                                                                                                                                                                                                                 Outreach Sessions
                                                                                                                                    Prosecution Declined:        1             Published Work        0                                    0
                                                                                                                                                                                                                       Conducted:
                                                                                                                                                                                     Products:

                                                                                                                                  Referred for Alternative                  Unpublished Work
                                                                                                                                                                 0                                   0
                                                                                                                                               Resolution:                         Products*:

                                                                                                                                              Convictions,
                                                                                                                                       Settlements, Pleas,       0               QCRs Issued:        0
                                                                                                                                               Judgments:

   Cumulative Data Since 2/17/2009                       Cumulative Data Since 2/17/2009                                 Cumulative Data Since 2/17/2009              Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                                                                              Completed Final
                                                                                                                                                                                                                   Training Sessions
              Received:        452                                       Received:             9                                   Closed without Action:       75            Published Work        17                                   313
                                                                                                                                                                                                                          Provided:
                                                                                                                                                                                    Products:
                                                                                                                                                                               Priority Interim
                                                                         Accepted:             9                                    Prosecution Declined:       18             Published Work        1          Individuals Trained:     21644
                                                                                                                                                                                     Products:

                                                                                                                                  Referred for Alternative                  Unpublished Work                      Hours of Training
                                                                                                                                                                 9                                   0                                   22052
                                                                                                                                               Resolution:                         Products*:                            Provided:

                                                                                                                                              Convictions,
                                                                                                                                                                                                                 Outreach Sessions
                                                                                                                                       Settlements, Pleas,       2               QCRs Issued:        0                                   165
                                                                                                                                                                                                                       Conducted:
                                                                                                                                               Judgments:

                                                                                                                                        Cumulative Total:       104         Cumulative Total:       18




               *These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                                                                              August 2012 Page 1
                                                  OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 5) Version 5.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 08/31/2012

       No.                     OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1
        2
        3
        4
        5
        6
        7
        8
        9
       10

       No.                             OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1
        2
        3
        4
        5
        6
        7
        8
        9
       10




                                                                                                                   August 2012 Page 1
                                                             OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 5 of 5) Version 5.0a
Reporting Department of Transportation -
  Month 08/31/2012

                                                                           TRAINING ACTIVITIES
                                                                                                                                                Hours of
                                                                                                                     Length of                  Training
                                              Target                                  Training Location   Date of                 Number of                    Cost of
  No.           Type of Training                               Title of Training                                      Training                 Provided
                                             Audience                                    (City, State)    Training               Participants                  Training
                                                                                                                      (hours)                   (length x
                                                                                                                                              participants)
   1
   2
   3
   4
    5
    6
    7
    8
    9
   10
   11
   12
   13
   14
   15
                                                                                                                      TOTAL                 0              0

                                                 OUTREACH ACTIVITIES
                                             Number of
             Organization to which         Organizations                              Outreach Location    Date of
  No.                                      Represented at Description of Outreach
              Outreach Provided                                                          (City, State)    Outreach
                                             Outreach
                                              Session
   1
   2
   3
   4
   5




                                                                                                                                                August 2012 Page 1
